<html>
<title> - LOST EINSTEINS: LACK OF DIVERSITY IN PATENT INVENTORSHIP AND THE IMPACT ON AMERICA'S INNOVATION ECONOMY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
              LOST EINSTEINS: LACK OF DIVERSITY IN PATENT
                     INVENTORSHIP AND THE IMPACT ON
                      AMERICA'S INNOVATION ECONOMY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON COURTS,
                INTELLECTUAL PROPERTY, AND THE INTERNET

                                 of the

                      COMMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2019

                               __________

                           Serial No. 116-12

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         






        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
        
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-359                  WASHINGTON : 2019               

        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
        Brendan Belair, Minority Staff Director & Chief Counsel

                                 ------                                

    SUBCOMMITTEE ON COURTS, INTELLECTUAL PROPERTY, AND THE INTERNET

             HENRY C. ``HANK'' JOHNSON, Jr., Georgia, Chair
                   LOU CORREA, California, Vice-Chair
THEODORE E. DEUTCH, Florida          MARTHA ROBY, Alabama,
CEDRIC RICHMOND, Louisiana             Ranking Member
HAKEEM JEFFRIES, New York            STEVE CHABOT, Ohio
TED LIEU, California                 JIM JORDAN, Ohio
GREG STANTON, Arizona                JOHN RADCLIFF, Texas
ZOE LOFGREN, California              MATT GAETZ, Florida
STEVE COHEN, Tennessee               MIKE JOHNSON, Louisiana
KAREN BASS, California               ANDY BIGGS, Arizona
ERIC SWALWELL, California            GUY RESCHENTHALER, Pennsylvania
                                     BEN CLINE, Virginia

                      Jamie Simpson, Chief Counsel
                  Thomas Stoll, Minority Chief Counsel
                  
                  
                            C O N T E N T S

                              ----------                              

                             MARCH 27, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Henry C. Hank Johnson, Jr., a Representative in the 
  Congress from the State of Georgia, and Chairman, Subcommittee 
  on Courts, Intellectual Property, and the Internet.............     1
The Honorable Martha Roby, a Representative in the Congress from 
  the State of Alabama, and Ranking Member, Subcommittee on 
  Courts, Intellectual Property, and the Internet................     3
The Honorable Jerrold Nadler, a Representative in the Congress 
  from the State of New York, and Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

The Honorable Michelle Lee, Former Under Secretary of Commerce 
  for Intellectual Property and Director U.S. Patent and 
  Trademark Office
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Professor Lisa D. Cook, Associate Professor of Economics and 
  International Relations, Director, American Economic 
  Association Summer Training Program, Department of Economics, 
  Michigan State University
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Professor Ayanna Howard, Professor and Chair, School of 
  Interactive Computing, Georgia Institute of Technology
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Ms. Susie Armstrong, Senior Vice President, Engineering, 
  Qualcomm, Inc.
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared statement for the record from the Honorable Doug 
  Collins, a Representative in the Congress from Georgia, and 
  Ranking Member, Committee on the Judiciary.....................    73

                                APPENDIX
               material submitted for the hearing record

Questions to witnesses for the Record from the Honorable Martha 
  Roby, a Representative in the Congress from the State of 
  Alabama, and Ranking Member, Subcommittee on Courts, 
  Intellectual Property, and the
  Internet.......................................................    78
Response to questions for the Record from The Honorable Michelle 
  Lee, Former Under Secretary of Commerce for Intellectual 
  Property and Director U.S. Patent and Trademark Office.........    80
Response to questions for the Record from Professor Lisa D. Cook, 
  Associate Professor of Economics and International Relations, 
  Director, American Economic Association Summer Training 
  Program, Department of Economics, Michigan State University....    83
Response to questions for the Record from Professor Ayanna 
  Howard, Professor and Chair, School of Interactive Computing, 
  Georgia Institute of Technology................................    87
Response to questions for the Record from Ms. Susie Armstrong, 
  Senior Vice President, Engineering, Qualcomm, Inc..............    88


LOST EINSTEINS: LACK OF DIVERSITY IN PATENT INVENTORSHIP AND THE IMPACT 
                    ON AMERICA'S INNOVATION ECONOMY

                       WEDNESDAY, MARCH 27, 2019

                        House of Representatives

   Subcommittee on Courts, Intellectual Property, and the Internet, 
                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Henry C. 
``Hank'' Johnson, Jr. [Chairman of the Subcommittee] presiding.
    Present: Representatives Johnson of Georgia, Nadler, 
Deutch, Jeffries, Stanton, Lofgren, Correa, Roby, Chabot, 
Jordan, Reschen-thaler, and Cline.
    Staff Present: Jamie Simpson, Chief Counsel; David 
Greengrass, Senior Counsel; Madeline Strasser, Chief Clerk; 
Rosalind Jackson, Professional Staff Member; Thomas Stoll, 
Minority Chief Counsel; and Andrea Woodard, Minority 
Professional Staff Member.
    Mr. Johnson of Georgia. Good morning, everyone. The 
subcommittee will come to order. Without objection, the Chair 
is authorized to declare recesses of the Subcommittee at any 
time.
    We welcome everyone to this morning's hearing on ``Lost 
Einsteins: Lack of Diversity and Patent Inventorship and the 
Impact on America's Innovation Economy.''
    I will now recognize myself for an opening statement.
    Good morning, everyone. Welcome to the first hearing in the 
116th Congress of the House Judiciary Committee's Subcommittee 
on Courts, Intellectual Property, and the Internet. I am proud 
that we begin our Committee's work on a topic that is of 
paramount importance to the future of our country, ensuring 
that everyone has the same equality of opportunity to 
participate in our Nation's innovation economy, a right so 
important that it is guaranteed by the U.S. Constitution. Our 
long-standing commitment to the innovation economy has made the 
United States a world super power. We have a duty to ensure 
that everyone has an equal chance to participate fairly in this 
vibrant part of our economy without misuse or abuse. Women, 
minorities, and other underrepresented groups of people should 
not be excluded from the patent system or face unnecessary 
barriers. Moreover, if we are to stay the world leader, we 
cannot afford to leave innovative talent behind.
    As the Subcommittee on Intellectual Property, we come at 
this question from a particular angle, looking at who is named 
as inventors on U.S. patents. Because the first Patent Act 
passed in 1790, shortly after this country's founding, we have 
a large documentary history of data to use. The good news is 
that this data shows that the patent system has long played a 
role in enabling marginalized but ambitious and inventive 
people the ability to participate in the innovation economy 
through the receipt of a patent. For example, while the 
majority of African Americans were still enslaved, the first 
patent believed to be awarded to an African American was in 
1821 to Thomas L. Jennings for his new method of dry cleaning 
clothes. Another example: well before women obtained the right 
to vote, the first patent believed to be awarded to a woman was 
in 1793 to Hannah Wilkinson Slater for her new method of 
producing cotton sewing thread.
    The bad news, however, is that, in modern times, data shows 
that there has not been a good track record of progress towards 
having equal protection from these groups in the patent system. 
The USPTO's recent report on gender diversity shows that, even 
today, the total number of inventors who are women in the 
United States is only 12 percent. It has not substantially 
increased over the last 15 years.
    For other underrepresented groups, collecting data on 
patenting has been more challenging. The USPTO does not collect 
demographic data on who applies for patents. In the gender 
space, researchers have often relied upon algorithms to 
estimate if an inventor's name is male or female. This is not a 
perfect approach, but it is even harder for researchers to 
associate inventor data with other demographics such as race or 
ethnicity.
    I am pleased that one of our witnesses today, Professor 
Lisa Cook, has nonetheless conducted research on how many 
African Americans are named as inventors on patents. This body 
of work, including Professor Cook's research, documents that 
there is underrepresentation here as well.
    I look forward as well to hearing from the rest of the 
accomplished witnesses on this panel about their own stories of 
being a woman or minority in fields where they might have had 
few peers who look like them. I want to understand the 
challenges they faced and their ideas for improvement and, 
indeed, where they have already taken steps to improve 
participation, like former USPTO director Michell Lee's All in 
STEM initiative to address gender diversity.
    Congress has certainly taken notice of this issue before. I 
was proud in the last Congress to work with the gentleman from 
Ohio, Mr. Chabot, and other Members of this Committee on the 
passage of the SUCCESS Act, which called for the USPTO to put 
together a comprehensive survey on patenting by women, 
minorities, veterans, and low-income individuals.
    But it also seems that there is much more that we can do, 
and I hope to learn more about potential steps we can take from 
our witnesses as well.
    I have often heard, for example, that many from 
underrepresented groups leave STEM fields once they are in them 
because they find themselves in an unwelcoming work 
environment. Research shows that this is just one of many 
reasons why there might be underrepresentation. And there is no 
doubt that this is a complicated issue, but it is also 
critically important.
    I think the title of the hearing speaks directly to this, 
``Lost Einsteins.'' When women and minorities are not in the 
innovation pipeline or if they leave because they don't feel 
welcome, we are losing sources for increased innovation. We are 
leaving talent on the table, and, frankly, we are leaving 
talent behind. The lack of diversity calls into question 
whether there is an equal opportunity for all of these 
underrepresented groups to live up to their full potential if 
being an inventor or an innovator is what they want to do. I 
believe we can and should do better.
    Thank you, and I look forward to your testimony.
    And it is now my pleasure to recognize the Ranking Member 
of the Subcommittee, the gentlewoman from Alabama, Mrs. Roby, 
for her opening statement.
    Mrs. Roby. I thank the Chairman, and I thank all of the 
witnesses for being here with us today.
    Patents are one of the key drivers of innovation in this 
country. And by protecting inventions from theft, they provide 
the incentive necessary for individual inventors and small and 
large companies alike to invest the time and resources needed 
to develop lifesaving and life-enhancing products and helps the 
United States maintain its position in the world as the world's 
undisputed innovation leader.
    To realize our full potential, America needs to tap into 
the inventive genius found in the great minds of all our 
citizens, great minds like that of NASA chemist Barbara Askins, 
a graduate of the University of Alabama and a Huntsville 
resident, who, in 1978, was recognized as the first national 
inventor of the year. Ms. Askins invented the autoradiograph 
technology to create very high contrast images used in space 
photography and to vastly improve X-ray images. She was the 
sole inventor on the project and alone received a patent.
    Unfortunately, while U.S. women earn almost half of all the 
undergraduate degrees in science and engineering and 39 percent 
of all new Ph.D.s in this field, even today they are not 
receiving a proportionate share of patents. The USPTO's recent 
study on the issue found that, in 2016, a woman was named on 
only 21 percent of all patents granted, and women inventors 
made up only 12 percent of all inventors. It concluded that 
gains in participation in science and engineering occupations 
and entrepreneurship are not leading to significant increases 
in women inventors receiving patents. We have to do a better 
job of unlocking this potential to both help all of our 
citizens enjoy the fruits of their labor while also helping the 
U.S. to maintain its position as the technology leader.
    To that end, just last year, this committee passed a bill 
that was signed into law with that goal in mind. The SUCCESS 
Act instructed the USPTO to work with the Small Business 
Administration to study the issue and report to Congress on 
recommendations for promoting the participation of women, 
minorities, and veterans both in entrepreneurship and in 
applying and obtaining patents. I look forward to receiving 
that report and its recommendations.
    Today, we all look forward to hearing from our esteemed 
witnesses on their experiences with the patent system and how 
our great female minds value the patent system but have 
experienced challenges fully participating in it and their 
recommendations on what can be done to promote the creation of 
new inventions by women and minorities in the patenting of 
those inventions.
    So, again, I thank you, Mr. Chairman.
    And I thank you again, all of the witnesses, for appearing 
here today. And we look forward to not only your testimony but 
having the opportunity to engage with each of you.
    Thank you. I yield back.
    Mr. Johnson of Georgia. Thank you, Representative Roby.
    I am now pleased to recognize the Chairman of the Full 
Committee, the gentleman from New York, Mr. Nadler, for his 
opening statement.
    Chairman Nadler. Thank you, Mr. Chairman. And thank you for 
holding this important hearing to investigate why there is a 
lack of diversity among patent holders in the United States.
    Unlike many issues in Congress, there is bipartisan 
agreement on the need to protect American intellectual property 
and to foster innovation. So many entrepreneurs today rely on 
intellectual property to fuel their businesses, and these 
businesses are increasingly the engine of economic growth in 
our Nation. Statistics underscore how important IP is to our 
economy.
    In 2016, the U.S. Commerce Department reported that IP-
intensive industries contributed more than $6 trillion of value 
to the U.S. gross domestic product. With so much of our economy 
dependent on IP-related industries, it is critical that 
everyone share in the economic opportunities that these 
industries offer. Promoting greater inclusion in the innovation 
ecosystem is good for our economy, good for underserved 
communities, and good for all Americans.
    Unfortunately, research shows that many segments of our 
society continue to be underrepresented as inventors on 
patents. The U.S. Patent and Trademark Office's recent report 
on gender diversity finds that women are very much 
underrepresented as patent holders. Analyzing data on U.S. 
patents granted between 1976 and 2016, the report shows that 
women compromised only 12 percent of the named investors on 
patents in 2016, representing an increase of only 2 percent 
over the last 16 years. Clearly, whatever progress is being 
made is happening far too slowly, and much needs to be done to 
promote greater gender diversity among inventors.
    Moreover, the USPTO's research shows that the 
underrepresentation in patenting is not solely a function of 
women entering science and engineering fields at lower rates 
than men, although that continues to be a problem. In 2015, 
women compromised nearly 28 percent of the total science and 
engineering workforce but only 12 percent of inventors granted 
patents.
    Even when women are in the fields most associated with 
patenting, they are patenting at the same rate as their male 
colleagues. This shows that the gender gap in patenting is 
likely to be caused by many factors, not just because there are 
fewer women scientists and engineers. Unfortunately, because 
the USPTO does not collect demographic data on inventors, it 
has been more challenging to study racial and ethnic diversity 
among U.S. inventors. Nonetheless, the studies that have been 
done also show significant disparities in patenting rates along 
racial and ethnic lines.
    I hope to learn more from the witnesses about how we can 
improve data collection on this issue and learn more about the 
causes of these disparities since the first step toward solving 
the problem is understanding its scope and root causes. For 
example, one study found that exposure to innovation during 
childhood has a major impact on an individual's desire to 
become an inventor, that a child's likelihood of becoming an 
inventor increases if he or she grows up in one of our 
country's technology hubs. I am proud that New York City, where 
my district is located, counts as one of these hubs, and I hope 
we can figure out how to replicate this sort of inventive 
environment elsewhere throughout the United States.
    As the title of this hearing suggests, there may be many 
lost Einsteins in our country. The loss in economic value and 
innovation to say nothing of the missed opportunities for these 
individuals who are left behind presents a significant 
challenge that must be addressed.
    I look forward to hearing from our witnesses not just about 
the barriers that underrepresented groups may face in the 
innovation ecosystem but also about how we can begin to address 
this serious problem. We can and we must do better, and that 
starts with hearings like this.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The statement of Chairman Nadler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Johnson of Georgia. Thank you.
    I will now introduce today's witnesses.
    Michelle K. Lee is the Former Director of the U.S. Patent 
and Trademark Office and Former Under Secretary of Commerce for 
Intellectual Property. In that role, Ms. Lee was the principal 
advisor to the President through the Secretary of Commerce on 
domestic and international intellectual property policy matters 
and is the first woman to serve as the Director of the USPTO in 
the country's 220-plus-year history. She is also a veteran of 
Silicon Valley experienced in scaling fast-growing companies 
with disruptive technologies and an expert in intellectual 
property. She was the Deputy General Counsel for Google and, 
before that, worked at the law firm of Fenwick and West LLP. 
She currently serves as a public company board of directors for 
alarm.com, a provider of a cloud-based software as a service 
solution. Before building her legal career, Ms. Lee worked as a 
computer scientist at Hewlett-Packard research laboratories as 
well as at the Massachusetts Institute of Technology Artificial 
Intelligence Laboratory. She holds a B.S. and also an M.S. in 
electrical engineering and computer science from MIT as well as 
a J.D. from Stanford law school.
    Professor Lisa D. Clark teaches at both James Madison 
College and in the Department of Economics at Michigan State 
University. After receiving a B.A. from Spelman College, she 
was a Marshall Scholar at Oxford University, where she obtained 
a B.A. in philosophy, politics, and economics. She received a 
Ph.D. in economics from the University of California at 
Berkeley and was a Postdoctoral Fellow and Visiting Assistant 
Professor at the Kennedy School of Government and Deputy 
Director for Africa research at the Center for International 
Development at Harvard University. Her current research 
interests include the economics of intellectual property 
rights, economic growth, and development, financial 
institutions and markets, and economic history. Dr. Cook is the 
author of a number of published articles, books, chapters, and 
working papers, and has edited and contributed to the Harvard 
World Economic Forum Global and Africa Competitiveness Reports.
    Dr. Ayanna Howard is a Professor and Chair of the School of 
Interactive Computing at the Georgia Institute of Technology. 
She is also the Chief Technology Officer of Zyrobotics. She has 
made significant contributions in the technology areas of 
artificial intelligence, computer vision, and robotics. Her 
published research numbers over 250 peer-reviewed publications. 
Her accomplishments have been highlighted through a number of 
awards and articles as well as being named an MIT technology 
review top young innovator and recognized as one of the 23 most 
powerful women engineers in the world of Business Insider as 
well as one of the top 50 U.S. women in tech by Forbes. Prior 
to Georgia Tech, Dr. Howard was a Senior Robotics researcher 
and a Deputy Manager at NASA's Jet Propulsion Laboratory. Dr. 
Howard received her B.S. from Brown University, her MSEE from 
the University of Southern California, her Ph.D. in electrical 
engineering from the University of Southern California, and her 
M.A. from Claremont University Drucker School of Management.
    Susan M. Armstrong is a Senior Vice President in 
Engineering at Qualcomm. She started at Qualcomm working on 
Globalstar and then early CDMA base station projects. She was a 
pioneer in bringing internet protocols to the cellular industry 
resulting in the first web surfing on a cellular phone in 1997 
and Qualcomm's commercialization of packet data in 1998. Since 
then, she has held various leadership positions, first as the 
head of software engineering in Qualcomm's mobile chipset 
division and then as the head of worldwide customer customer 
engineering, the group that integrates and commercializes the 
company's products and phones and other wireless devices. 
Recently, Ms. Armstrong has joined Qualcomm's government 
affairs group, where she brings an engineering and product 
background to policy work. Prior to joining Qualcomm in 1994, 
Ms. Armstrong worked for 10 years at the Xerox systems 
development department and the Xerox Webster Research Center. 
Ms. Armstrong holds a Bachelor's degree in Computer Science 
from California Polytechnic State University, San Luis Obispo. 
And, I hope that I have got that name right. Qualcomm?
    Ms. Armstrong. Qualcomm, yes.
    Mr. Johnson of Georgia. Okay. Thank you.
    We welcome all of our distinguished witnesses and thank you 
all for participating in today's hearing.
    Before proceeding with testimony, I hereby remind each 
witness that all of your written and oral statements made to 
this Subcommittee in connection with this hearing are subject 
to penalties of perjury pursuant to 18 U.S.C., section 1001, 
which may result in the imposition of a fine or imprisonment of 
up to 5 years or both. Please note that each of your written 
statements will be entered into the record in its entirety.
    Accordingly, I ask that you summarize your testimony in 5 
minutes. To help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you have 1 minute to conclude your testimony. And when 
the light turns red, it signals your 5 minutes have expired.
    Once again, I thank you all for being here.
    And, Ms. Lee, you may begin.
    Ms. Lee. Good morning.
    Mr. Johnson of Georgia. And if you would turn on your 
microphone.
    Thank you.

   STATEMENTS OF THE HONORABLE MICHELLE K. LEE, FORMER UNDER 
 SECRETARY OF COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR, 
   U.S. PATENT AND TRADEMARK OFFICE; LISA D. COOK, ASSOCIATE 
 PROFESSOR OF ECONOMICS AND INTERNATIONAL RELATIONS, DIRECTOR, 
    AMERICAN ECONOMIC ASSOCIATION SUMMER TRAINING PROGRAM, 
  DEPARTMENT OF ECONOMICS, MICHIGAN STATE UNIVERSITY; AYANNA 
 HOWARD, PROFESSOR AND CHAIR, SCHOOL OF INTERACTIVE COMPUTING, 
 GEORGIA INSTITUTE OF TECHNOLOGY; AND SUSIE ARMSTRONG, SENIOR 
          VICE PRESIDENT, ENGINEERING, QUALCOMM, INC.

           STATEMENT OF THE HONORABLE MICHELLE K. LEE

    Ms. Lee. Good morning, Chairman Johnson, Ranking Member 
Roby, and Members of the Subcommittee. It is a pleasure to be 
with you here today and thank you for hosting a hearing on such 
an important topic. Invention is a cornerstone of America's 
continued economic prosperity and well-being. Our world faces 
numerous challenges, including global warming, food insecurity, 
and cybersecurity, but also a number of attractive 
opportunities, including finding new cures for diseases and 
providing greater mobility for those with disability.
    But solving those problems will require all the talent and 
all the ingenuity that we can muster. Yet when it comes to 
technological innovation, we are rowing with one hand behind 
our back. We have all seen the numbers. The percentage of women 
who are awarded patents in the U.S. is extremely low, anywhere 
from 12 to 21 percent, depending upon the study and depending 
upon how you count. And one recent study indicated that, at 
this rate, it would take 118 years for us to reach parity in 
gender in terms of patenting.
    Why are the numbers so low? Number one, fewer girls and 
fewer women pursue STEM careers. And even those that do face 
high attrition rates. There are a myriad of reasons for this 
including differences in upbringing, societal expectations, 
fewer role models, unconscious bias, and even images in the 
media. Both these factors contribute to the low numbers in 
terms of women patent inventors.
    If you think about it, in order to earn a patent, you have 
to have a pretty good understanding of your field, the 
technology, and how a product or process works. And then you 
have to come up with an insight that no one else has ever 
thought about on how to make it better, faster, cheaper, more 
cost-effective. And these insights don't often come to you in 
your first several years of practice in the profession. So, to 
the extent that women are leaving STEM careers earlier and at 
faster rates, that negatively impacts their patenting numbers.
    Another contributing factor is the way organizations 
solicit invention disclosures. Based upon my experiences as in-
house counsel, there are generally two ways: first, as a 
voluntary inventor-initiated submission and, second, as a 
manager-initiated brainstorming session inviting the relevant 
team members to brainstorm to harvest the inventions. The 
latter method, manager-initiated brainstorming sessions, tended 
to be much more productive in terms of getting invention 
disclosures from women.
    Left to their own devices, women tended to discount the 
novelty and usefulness of their inventions and were less 
willing to dedicate the time to submit an invention disclosure 
and to process the patent application and viewed such 
activities as extracurricular professional activities. This has 
implications on our economy. IP-intensive industry support one-
quarter of all jobs in the U.S. and make up one-third of our 
gross domestic product.
    So what can we do? Personally, as a woman who has spent her 
career in tech and as the first woman head of the United States 
Patent and Trademark Office in our country's 200-plus-year 
history, I felt a heightened calling to address some of the 
problems I had seen. This led me to launch, as Chairman Johnson 
said, the first All-in-STEM initiative at the PTO. Its purpose: 
to encourage more girls and more women to pursue STEM education 
so that they could become inventors, STEM leaders, and 
entrepreneurs. Programs included camp invention to teach our 
kids to design and build and create; a Girl Scout intellectual 
property patch to teach our young girls about IP and invention; 
workshops for women inventors and entrepreneurs so that they 
know of the resources and they have the support they need to 
carry out their work.
    But there are ways that all of us can contribute. In-house 
patent counsel can measure and track the relevant statistics 
and be thoughtful on how invention disclosures are gathered. We 
can all be conscious of the disparate ways in which we raise 
our boys and girls, from the toys they play with, to the 
activities they pursue, to our expectations of them. We can 
broaden the image of inventors by sharing stories of successful 
women inventors, mentoring students in STEM to the maximum 
interest and potential of these individuals; and, within 
organizations that hire STEM talent, try to find ways to reduce 
unconscious bias and to recruit and retain these women and, if 
in alignment with your organization's priorities, including 
patenting as a factor to consider in the promotion and tenure 
decisions.
    I am not advocating for gender parity in patenting numbers 
simply for the sake of achieving parity. Rather, I believe we 
need to nurture, develop, and harness all of our nation's 
technical, innovative talents in whatever shape, age, gender, 
background, or other demographic in which it may come.
    As the title of your hearing suggests, our society and 
world cannot afford to leave behind any future Einsteins.
    Thank you. I will be glad to answer your questions.
    [The statement of Ms. Lee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Johnson of Georgia. Thank you.
    Professor Cook, you may begin.

                   STATEMENT OF LISA D. COOK

    Ms. Cook. Chairman Johnson, Ranking Member Roby, and 
eminent Members the Committee, thank you for the opportunity to 
testify today about ``Lost Einsteins: Lack of Diversity and 
Patent Inventorship and the Impact on America's Economy.''
    While we have my cousin, Percy Lavon Julian, to thank for 
cortisone, which he developed in the 1950s, it was difficult 
living and being an African American inventor at that time. His 
home in Oak Park, Illinois, was fire-bombed twice. We as a 
society have made progress since that time, but invention and 
innovation could be more inclusive and beneficial to everyone 
as a result.
    Unequal access to invention and innovation can lead to 
suboptimal outcomes for individuals and for the economy as a 
whole. My research with Kongcharoen offers evidence that women 
and underrepresented minorities are less likely to participate 
in invention and innovation at each stage of the inventive 
process: education and training, the practice of invention, and 
commercialization of invention.
    For women and minorities or would-be participants in this 
category, this can result in an earnings, income, and 
employment wealth gap. For the economy as a whole, this can 
result in lower output and living standards. My and others' 
research calculates that the size of the economy could be 3 to 
4 percent higher if women and underrepresented minorities were 
included in the innovative process from beginning to end. That 
is living standards could be higher for all Americans with a 
more inclusive innovative economy. My research was the first 
study to systematically examine racial and gender gaps in 
invention and innovation.
    Allow me to say a little about my and related research. In 
the early stages of education and training in STEM fields, 
women and underrepresented minorities lag in participation in 
nearly every STEM field. In 2014, women were awarded 35 percent 
of bachelor's degrees in STEM fields, and 16 to 17 percent of 
those in computer science and physics, and 23 percent of 
doctoral degrees in engineering. For African Americans, this 
was 4 percent of all STEM Ph.D. Degrees.
    The recent literature on the gender and racial gap related 
to participation in STEM fields attempts to identify the 
factors affecting these differences including the impact of 
social norms and gender stereotypes, peer effects, and 
professors' gender on test scores and college majors.
    With respect to practicing invention and creating new 
knowledge or products, women and African Americans not only 
engage at generally lower levels than their counterparts, but 
they also earn less and are employed less than their 
counterparts.
    In 2010, the median salary for Whites was $72,000, and for 
African Americans it was $56,000, which was 78 percent of the 
median salary for Whites. In 2015, the share had only moved 
slightly to 79 percent. In 2015, the median salary for men was 
$87,000 and $62,000 for women, which was 71 percent of the 
median male salary.
    Among scientists and engineers, in 2015, African American 
unemployment was 4.7 percent compared to 2.9 percent for 
whites. The unemployment rate for African American women is 
nearly double that of all scientists and engineers and more 
than double that of White women scientists and engineers. 
Unemployment for underrepresented minority men was just about 4 
percent, which is higher than that for White and Asian men and 
higher than the average for all scientists and engineers.
    A few papers in the last decade have focused on the 
misallocation of talent among inventors and other high-skilled 
workers. My research found that coed patent teams are more 
productive than single sex male or single sex female patent 
teams. Hunt, Garant, Herman, and Munroe investigate the gender 
gap for commercialized patents and show that the gender gap 
among S&E degree holders is due primarily to women's 
underrepresentation in patent-intensive fields and patent-
intensive job tasks. They also find that closing this gap would 
increase U.S. GDP per capita cap by 2.7 percent.
    My 2018 research shows that closing that gap--using more 
recent data, closing that gap would be 0.6 percent to 4.4 
percent higher--GDP would be 4.4 percent higher if more women 
and African Americans received STEM training and worked in 
related jobs.
    Workplace issues for women and minorities go beyond the 
opportunity to participate in invention and innovation. 
Recently, tech workers in the U.S. have demonstrated to protest 
sexual harassment and misconduct, lack of transparency, 
including forced arbitration for sexual harassment claims, 
workplace culture, and pay and opportunity inequality. Among 
the Forbes list of richest people in the world, 5 of the top 10 
derive their wealth primarily from the innovative economy.And 
nine tech firms last year were valued at roughly $36 billion.
    If the aforementioned losses to GDP were being tolerated, 
firms, technology offices, and patent teams are not being good 
stewards of America's human capital and inventive capacity. 
This is a classic coordination problem and market failure. 
Public policy can help in the research, analysis, and promotion 
of diverse participation and inventive activities.
    I look forward to talking to you more about finding the 
lost Einsteins as well as the hidden figures, such as Katherine 
Johnson.
    [The statement of Ms. Cook follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Johnson of Georgia. Thank you.
    Dr. Howard, you may begin.

                   STATEMENT OF AYANNA HOWARD

    Ms. Howard. Thank you, Chairman Johnson, Ranking Member 
Roby, and full Committee Chairman Nadler.
    My name is Dr. Ayanna Howard, and I am professor and 569 
Chair of the School of Interactive Computing at the Georgia 
Institute of Technology. I also have served as the associate 
571 director of research for the Institute for Robotics and 
Intelligent Machines and Chair the robotics Ph.D. Program.
    From 1993 to 2005, I was at NASA's jet propulsion 574 
laboratory where I held the titles of senior robotics 575 
researcher and deputy manager in the Office of the Chief 
Scientist. I hold a degree in engineering from Brown 
University, an M.S. and Ph.D. in electrical engineering from 
the University of Southern California, and an MBA from the 
Drucker Graduate School of Management.
    My research concentrates on robotics, assistive 
technologies, and artificial intelligence, which has resulted 
in over 250 publications. In 2013, I founded Zyrobotics, a 
Georgia Tech spinoff company which designs AI-powered STEM 
tools and learning games for children with diverse learning 
needs. My research has been supported by various industry and 
government funding agencies ranging from NASA and the National 
Science Foundation to the Georgia Research Alliance, and 
Microsoft.
    I regularly consult and sit on the advisory boards of a 
number of organizations concerned with robotics, AI, and 
workforce development. My work has also been highlighted 
through a number of awards and articles, including highlights 
in Vanity Fair, USA Today, and Time Magazine, as well as being 
recognized as one of the 23 most powerful women engineers in 
the world by Business Insider and one of the top 50 U.S. women 
in tech by Forbes.
    Despite all these successes, I only hold three patents, 
which will now be the subject of discussion. I would like to 
focus on my experience with the patent system. I do consider 
myself an innovator and an entrepreneur. Invention is core to 
what I do, and yet I only hold three patents. Even though there 
has been a gain in female participation in science and 
engineering, findings have shown that there has been not a 
corresponding increase in female patent inventors.
    My story corroborates with this claim. My first application 
was filed in 2003 while I was still a graduate student and 
designed an encryption system using fingerprint biometrics with 
a small startup company. Given that neither of us had great 
financial resources, we put together a patent application that 
was filed. We eventually dropped pursuit of the application 
after our patent claims were denied. After all, in the world of 
logic, a rejection means just that: patent denied.
    It wasn't until 10 years later in 2013 that I pursued my 
next patent. And the only reason that came about was that I 
needed to submit a provisional patent in order to compete for 
the NSF I-Corps program, which is basically a boot camp 
entrepreneurship program for academics and university-derived 
IP.
    I developed at that time a device that enabled children 
with motor disabilities the ability to interact with tablet 
devices without requiring pinching, swiping, or touching. A 
year later in 2013, when the provisional patent was to expire, 
after much discussion, Georgia Teach moved forward with filing 
the patent application. Although it is now 2019, almost 6 years 
later, it has still not been granted.
    So what about the other patents that have been granted? 
Well, I discovered a little bit of a trick. I hired a great 
patent lawyer. So, when Zyrobotics, the Georgia Tech spinoff 
company was founded, it licensed the IP from that first patent. 
Given that I knew to be competitive, the company had to possess 
its own IP, we hired an extremely talented patent attorney. 
Although quite expensive, we secured two patents within a 2-
yeat timeframe. And I finally understood how the process 
worked, how the back-and-forth dance with the patent examiner 
evolves, how denial really means ``find another way, find 
another way, find another way,'' and how persistence can lead 
to success.
    Unfortunately, the price tag is not very sustainable for a 
startup company in the education space. I also think it is not 
that sustainable for an academic institution in which the 
return on investment is not well defined.
    So, given my personal experience in this space, it comes as 
no surprise to me that women still make up a small percentage 
of the patent inventors. Reports state that U.S. female-founded 
startups raise just 2.2 percent of venture capital investment 
in 2018. Without sufficient capital, how, then, would you 
prosecute a successful patent application given that the price 
tag is so high?
    I strongly believe, beyond educating entrepreneurs and 
given the state of affairs that currently we have, a more 
robust pro bono patent attorney agent program for small 
businesses would immensely help inventors compete in this 
patent world. It would also help level the playing field just a 
bit for women and underrepresented entrepreneurs.
    In closing, I appreciate the committee's attention to this 
topic.I stand ready to answer your questions and work with you 
on moving forward to help create a patent system where more 
researchers like myself can find success navigating the ins and 
outs of pursuing a patent.
    [The statement of Ms. Howard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Johnson of Georgia. Thank you, Dr. Howard.
    Ms. Armstrong, you may begin.

                  STATEMENT OF SUSIE ARMSTRONG

    Ms. Armstrong. Chairman Johnson, Ranking Member Roby, and 
Members of the Subcommittee, my name is Susie Armstrong, and I 
am a Senior Vice President of engineering at Qualcomm. Thank 
you for inviting me to testify today on this critical topic of 
diversity and innovation.
    As the leading U.S. company engaged in foundational 
research and development of 5G, Qualcomm believes that diverse 
innovation is an imperative. We can only solve the world's 
toughest engineering problems if we bring together teams with 
different backgrounds and different perspectives.
    Our CEO, Steve Mollenkopf, said recently: With 5G, new and 
previously unsolvable problems will be solved, new generations 
of innovations and innovators will be born. And we need more 
great technology minds, and that means getting the next 
generation, in particular women and underrepresented 
communities, excited and prepared for the world to come.
    Since starting Qualcomm in 1994, I have held various 
leadership positions at the company but first consider myself 
an engineer and an inventor. In my experience, invention rarely 
involves people working alone to develop brilliant ideas. More 
often, invention is a team effort that requires the creativity, 
the interaction, the debate, and the multiple perspectives that 
different collaborators bring to recognize a technical problem 
or opportunity.
    My own invention, called simple packet data, allowed 
cellular phones to connect to the internet and resulted in the 
first internet surfing of the 1997 CTIA show on this phone. I 
created a simple way for a base station to set up a packet data 
call by bringing to our engineering team my background in a 
completely separate field, computer communications and 
ethernet. That invention was impactful. 20 years later, mobile 
internet has revolutionized the way we communicate, paving the 
way for 5G and the wireless economy of the future.
    But not everybody has equal access to careers in 
innovation. Multiple studies have shown that women, people of 
color, and people from lower income families patent at lower 
rates than those that are White, male, and wealthier.
    At Qualcomm, given the complexity of the fundamental 5G 
technologies we research and develop, we must promote a culture 
of creativity, risk-taking, and diversity. We simply cannot 
afford to miss out on those engineers and inventors in 
underrepresented groups.
    We focus our efforts on four key areas to develop inventors 
both for Qualcomm and for its 5G foundational technologies and 
also for the industries and applications in use cases that use 
that ecosystem.
    First, as many inventions come from the STEM field, we 
believe we must encourage STEM education. To spark that 
interest in such invention careers, we created the Qualcomm 
Thinkabit Lab, a hands-on program aimed at inspiring the next 
generation of inventors, where students learn about 5G, the 
Internet of Things, tech career, and they create their own 
Internet of Things invention. The response has been so positive 
that we have partnered with school districts, universities, and 
libraries to create Thinkabit Labs in underrepresented 
communities across the Nation.
    Second, we have examined our hiring processes, especially 
on-campus recruiting. Last year, we added a Historically Black 
College and University--and two universities with high Hispanic 
populations to the top schools that we actively recruit at. And 
we also recruit at the Grace Hopper Conference for Women and 
Computing. We strive to send recruiting teams that reflect the 
excitement of wireless and semiconductor fields, reflect the 
existing diversity in the company and the diversity that we 
hope to achieve.
    Third, we focus on retention and new project opportunities 
for our diverse employees. We know from research and experience 
that mixed-gender teams are innovative. So we strive to spread 
these best practices. We develop employee-led networks to 
promote professional development. We work on engineering the 
bias out of our review and project rotation systems. We strive 
to ensure that diverse employees have access to coaching, 
mentorship, and career development opportunities and that they, 
in turn, pass those on.
    Finally, we work to create and maintain a strong culture of 
invention and patenting across the company. We have a strong 
inventor development program with both online and in-person 
patenting classes and encourage our patent holders to coach and 
mentor others. We also recognize our inventors as a way to 
celebrate them and encourage others. Engineers are proud to 
have their special badge and business cards with the inventor 
mark, and their status as patent holders appears in the company 
directory. Executives send a congratulatory letter to each 
inventor who obtains a patent, and we hold celebrations for 
inventors.
    In summary, it is a strategic and economic imperative for 
Qualcomm, for the 5G wireless ecosystem, and for the United 
States to ensure that inventors from all backgrounds and 
perspectives participate in solving these challenging 
engineering problems. Qualcomm is committed to ensuring the 
diverse people have every opportunity to bring their talents to 
that imperative.
    Thank you for the opportunity to speak with you today, and 
I look forward to your questions.
    [The statement of Ms. Armstrong follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Mr. Johnson of Georgia. Thank you, Ms. Armstrong.
    And, I want to thank all of the panelists for their 
testimony today.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Professor Cook, thank you for your pioneering work on how 
many African American inventors there are on patents. In your 
opinion, is there enough data available to understand the scope 
of the underrepresentation of racial minorities in patenting?
    Ms. Cook. There is not.
    Mr. Johnson of Georgia. What can be done to improve data 
collection? And are there any actions that Congress should 
consider?
    Ms. Cook. I think there are a few.
    First, I think it is imperative that we collect the data--
and suggesting that this be collected separately. These 
demographic data being collected on gender, race, ethnicity, 
and so on would be--I think would be very useful.
    I would add that adding veteran status and disability 
status would also be useful because the literature that I have 
talked about was burgeoning and is burgeoning, Assessment 2010. 
But there is a lot less on making an inclusive economy in other 
ways.
    So, yes, I think that this is a big first step in 
identifying African American inventors and other inventors.
    Mr. Johnson of Georgia. Thank you.
    Director Lee, do you have an opinion on that question?
    Ms. Lee. I do agree that collecting the data is critically 
important. From my time in government and also in the private 
sector, there is nobody that collects data better than the 
government in terms of accuracy and consistency over the 
decades. So, if the USPTO could collect demographic 
information, gender, and so forth, ethnicity, that combined 
with knowing what technology area the patent is in could give 
policymakers, agency leaders, private sector leaders, and 
academics a road map as to areas that are doing well, areas in 
need of improvement. And we can even compare data to 
international data points because patents from all over the 
world flow in through the United States Patent and Trademark 
Office.
    So that sort of insight could be very, very influential and 
impactful.
    Mr. Johnson of Georgia. Thank you.
    This question I will pose to all four of the witnesses.
    What do you think is the biggest obstacle to getting more 
women and minorities to participate in the patent system, 
beginning with you, Ms. Lee?
    Ms. Lee. There are many. How many of our children--how many 
of our girls grow up dreaming to be inventors? I ask that 
question. How could we get more of them to? How can we give 
them more STEM skills education? How can we recruit and retain? 
How can we give them the know-how so that once they are 
professionals in STEM, they know about how to obtain a patent, 
that it need not be as expensive as one thinks, that there are 
discounts that are offered to small entities and micro 
entities. Really getting the information out there that anybody 
can file for a patent.
    As you mentioned, Chairman Johnson, you don't even have to 
be a free person to get a patent. There is no age restriction. 
There is no gender restriction. Everybody should be able to get 
one, and they should know how to participate in the innovation 
economy.
    Mr. Johnson of Georgia. Thank you. Professor Cook.
    Ms. Cook. I think there are a number of things that could 
be done. I am on the board of the Lemelson Center for the Study 
of Invention and Innovation. And it has a spark lab. And I 
think that it has satellites all over the country. And it does 
this important work of showing students and schoolchildren how 
to not only invent but to innovate.
    And I think this is the point at which you get in students' 
heads and children's heads that they can do this. And this is 
the research that was referenced before by Teddy et al., in 
terms of exposing children to innovation.
    I certainly think knowing an inventor, a famous inventor 
like Percy Julian, certainly had this primordial--or planted 
this primordial seed to possibly study this. So I think it is 
really important to do this as early as possible.
    I also think being vigilant with respect to making sure 
that the EEOC is paying attention to these issues related to 
workplace harassment and to discrimination. It is not just the 
pipeline that is the problem. What we are hearing from workers 
is that it is the climate that exists when they are adults. 
This unemployment rate, this difference is, I think, primarily 
due to issues like this.
    So your keeping your eye on the ball and making sure that 
the Federal Government, the agencies tasked with doing so, keep 
their eyes on the ball with respect to harassment and 
discrimination will be extremely useful.
    Mr. Johnson of Georgia. Thank you.
    Dr. Howard.
    Dr. Howard. So, one, it has to be part of the DNA. And the 
way that you do that is you bring in successful women, patent 
owners, and inventors from very early on because there are so 
many things that a woman entrepreneur has to deal with that 
patents is not in the purview. That is such a ``I don't 
understand that value'' a lot of times.
    So, by exposing early, you at least start to dig a little 
bit into the problem.
    Mr. Johnson of Georgia. Thank you.
    Ms. Armstrong.
    Ms. Armstrong. And I would say I would echo what has been 
said along the table about the culture and getting children and 
minorities and girls into the STEM areas that tend to yield in 
patents.
    I think there is also--and I think a lot of girls and 
minorities don't see themselves in those careers. And they 
don't necessarily see themselves as inventors. And they don't 
know anything about patents. And that actually applies, I 
think, also to early career women and minorities as well.
    Unless you are in a company that stresses patenting and 
invention, every company stresses creativity and ambition, but 
I think there is a lack of access to practical tangible tools, 
perhaps pro bono work for the legal aspects of doing patents. 
But also, in so many of these incubators that I see, there is a 
relatively small number that seem to have actual patenting 
classes or coursework to help their entrepreneurs write 
patents.
    Mr. Johnson of Georgia. Thank you.
    We will next hear from the Ranking Member. Well, actually, 
we will go to Mr. Chabot for questions.
    Mr. Chabot. Thank you very much, Mr. Chairman. I appreciate 
you going--I want to thank our Ranking Member for allowing me 
to go. We have got a Small Business Committee that I am the 
Ranking Member on after this, and so it was very kind of them 
to let me go.
    I want to thank the panel members for their excellent 
testimony here this morning. I really did appreciate it.
    And as you may know, we passed some legislation. Introduced 
it, but there were a lot of members involved. I want to thank 
the chair for his involvement and Ms. Velazquez and Mr. 
Schneider and Mr. Gohmert and a bunch of others for their 
involvement in it. It is called the SUCCESS Act, which 
basically stood for Study of Underrepresented Classes Chasing 
Engineering and Science, SUCCESS Act. We always make these 
things very long names. But, in essence, it called for a study 
within the next year on what we can do to increase women, 
minorities, veterans, and others in obtaining patents. Because 
as the testimony from the witnesses was, it is very challenging 
to accomplish that.
    And so I guess my first question would be, as we are 
waiting for--and I will go to you, if I can, Dr. Howard, 
perhaps, first. And our congratulations, really, on your hard 
success and being a small business owner yourself and your 
years of dedication as a NASA scientist and all your other 
accomplishments, we commend you for that. So I will go to you 
first, I guess.
    As we are waiting for this legislation and study to be--the 
legislation has passed. It passed the House. It passed the 
Senate. The President signed it into law. So it is the law. And 
it extended the patent, the fee structure for 8 years. But it 
also did what I just mentioned, to encourage women, minorities, 
and veterans to be able to obtain patents themselves.
    As we are waiting for this study, what other things can we 
be doing in the meantime before the study comes back to 
accomplish some of those things so that folks aren't waiting 
for a year to get started? What would you suggest?
    Dr. Howard. So there is a lot you can do with women and 
underrepresented entrepreneurs with boots on ground, as they 
say. So a lot of times we don't even know that this is an 
issue. I think that there is enough patent owners that would be 
like: I can come and I can talk to my local community, my local 
entrepreneurs in my area and work with them, because we have 
gone through it, and so we know the pain. And we are more than 
willing, most of us, to come back and help the community. So 
some of it making those connections.
    Mr. Chabot. Thank you.
    In your testimony, you mentioned that one of the things 
that you would suggest, obviously get a good patent attorney, 
and they are expensive. You know, I wasn't a patent attorney, 
but I practiced law for almost two decades out there. Of 
course, I wasn't expensive. But in any event, I mean, we 
charge. Yes, I did pro bono cases periodically. And you 
mentioned that it would be great if, perhaps, patent attorneys 
would do things pro bono, if we could find a way to do. And 
that is great. And some will.
    But if you can't get enough of them to do that, then the 
only other way is paying those high fees or getting somebody 
else to do it, which means the taxpayer, meaning we have some 
government program that does it. Those are tough. We have got a 
$22 trillion debt. So what can we do--and I will open this up 
to any of the other panelists as well.
    If lawyers aren't going to provide free services, and we 
don't have the money to do it at the government because we got 
this $22 trillion debt hanging over our heads, what can we do 
either to get lawyers to be more helpful or other things 
besides that?
    Dr. Howard. So one thing, and this is just a wild 
suggestion. So most small businesses do have SBIR grants. Part 
of that is--there is no way to use it for patents or even 
partially for patents. And so it might be that that is part of 
the solution, right? Like, we have this overhead. Like, maybe 
we can use some of that somehow for patents. And so, yeah, it 
increases a little bit, but it is already part of the budget, 
is already part of your DNA. It is a wild suggestion.
    Mr. Chabot. Very good. Not that wild. Pretty good.
    Any of the other panelists?
    Ms. Lee. As the lawyer on the panel and as a former head of 
the United States Patent and Trademark Office, there are a lot 
of resources that are available to inventors. At the agency, I 
helped launch an initiative to offer pro bono services. Of 
course, it is never quite enough, right, given the demand. But 
there are discounted fees.
    And I am very proud to say, during my tenure at the U.S. 
Patent and Trademark Office, I helped launch three of the four 
regional offices, one in Silicon Valley, one in Denver, one in 
Detroit, one in Dallas. And you know what? That is getting 
resources out into the local community so that those 
individuals there can have workshop training programs, can 
reach out into the schools, can educate the students on what is 
intellectual property, who can be an inventor, what does an 
inventor look like. We distribute baseball, but inventor, 
collectable trading cards at schools with images of women and 
minority inventors, right? And we have workshops where people, 
including women workshops, where they come in, they learn the 
basics of intellectual property: What is a patent, trademark, 
copyright, trade secret? How do I figure this out so I could be 
smarter so that when I engage that lawyer, I can be much more 
efficient, and I can even write the patent application myself 
should I so choose?
    So there are a lot of resources that are available. There 
is a lot that can be done. But everybody should have access to 
the intellectual property system.
    Mr. Chabot. Thank you very much.
    My time has expired, Mr. Chairman. Thank you.
    Mr. Johnson of Georgia. Thank you.
    We will now hear from the gentlelady from California, 
Representative Zoe Lofgren.
    Ms. Lofgren. Thank you very much.
    Director Lee, it is good to see you again. This is my 
second iteration on the PTO report on women inventors. We had 
the current director out at the San Jose patent office, and we 
were talking about the role we both played in making sure that 
office got open. And I will tell you, it is a huge success. So 
thank you for the efforts that you made, and the community is 
very supportive.
    And one of the things that is so helpful is to have the 
patent examiners right in San Jose. I mean, the big companies 
can afford to send people out here to the D.C. area. But for 
the smaller inventors, the proximity is really a big deal. So 
it is filling a good mission.
    You know, as I am thinking through and thinking back on the 
discussion we had at the San Jose office, we are falling short 
in diversity from the beginning with--and it actually gets 
worse the older people get. We have got girls coding, but the 
actual number of women entering computer science programs at 
the university level is declining. And we know we have a 
problem in industry as well as academia.
    So the question is, what can we do about that? And I don't 
think there is any one answer. But I do think, just focusing on 
the role of business, because most patents are filed out of the 
business sector. Comparing even the patent innovation in the 
academic setting to the business sectors, the business sector 
does not appear to be doing what it needs to do.
    And after the policy discussion we had in San Jose, a lot 
of the representatives from the companies we were asking, we 
will need to examine our own procedures because not only is 
this not good for the country; it is not good for these 
companies. They are losing out as well.
    So I am wondering--you know, I always remember a convention 
I went to with my then-chief of staff, who was female, at the 
Santa Clara--city of San Jose convention center. Huge, huge 
room. It was engineers, electrical engineers, in the valley. 
And we walked in, and it was like a sea of men. And we looked, 
and there were like maybe 10 women of the thousands of 
engineers who were--who kind of glommed together. And I 
thought, you know, you don't have to have a hostile work 
environment in the legal sense to not have a welcoming 
environment.
    How do we go about setting metrics to change that? I mean, 
we can't tell employers how to run their businesses directly. 
But what could we do as a Congress to kind of help companies 
move a different direction?
    Michelle, you have been at the office. You have been at 
Google. You have been a patent lawyer. What are your thoughts?
    Ms. Lee. Yes. So thank you, Congressman Lofgren. And thank 
you also for your leadership in establishing the Silicon Valley 
office. That was a great partnership.
    I do think it is critically important that the data be 
gathered, because companies, even if they gather it, they 
sometimes don't publish it.
    Ms. Lofgren. Right.
    Ms. Lee. And if the government could gather it across the 
board, across the country, across all ethnicities, across all 
demographics, and compare that to countries across the world--I 
understand that in Romania, the number of researchers in 
engineering who are women is 44 percent.
    Ms. Lofgren. Right. Canada is also different. I mean, it is 
not about gender; it is about what we are doing.
    Ms. Lee. Correct. So I think it is important to record the 
data, track the progress, and, therefore, pinpoint and focus by 
technology area, by industry, because it varies. In the life 
sciences, the numbers are higher.
    Ms. Lofgren. Right.
    Ms. Lee. In computer science, it is much lower. So let's be 
specific, let's be granular. And Federal agencies, like I say, 
they collect data over decades, and it is accurate. And that is 
a very good starting point. So then private sector, 
policymakers, academics, they can all look at how to improve, 
where do we need to improve.
    Ms. Lofgren. So one thing that I want to explore is, you 
know, as we looked at the diversity issue in Silicon Valley, in 
my district, we said, you know, if you can't measure it, it 
doesn't exist. I mean, you have to start measuring it, and the 
big companies did. I mean, Google, in particular, went on a 
huge effort. I am not saying they succeeded completely, but 
they have, on diversity and the hiring, published their data 
and the like.
    We could--I think we have jurisdiction, because of our EEOC 
jurisdiction, to require publication of some of this data. Is 
that a step that the four of you would recommend?
    Ms. Cook. Yes. Excuse me. If I can answer, yes, that would 
be a huge boon to researchers, but the way they release the 
data, I can't do anything with them. I can make some good 
charts, the charts that they make, but I can't do any sort of 
analysis. Typically, for race and ethnicity, for example, they 
are bundled into the world workforce.
    Ms. Lofgren. Right.
    Ms. Cook. Women are often not divided by technical fields 
and other fields. And what we know is that they are typically 
in marketing and in human resources. So I think if you are 
asking the question about what we can do now, I think one of 
the things that we are doing in the economics profession is 
doing a climate survey and coming up with results that are 
being circulated widely.
    And I think it is the climate. I really think it is the 
climate. It is not the--the supply side. We figured that out. 
There are a lot of women who would like to be in the tech 
field, for example, or be an entrepreneur, inventor. This is 
what I was doing at the--at the White House when I was working 
on small businesses. But we don't have as much information, and 
we don't have as much sway. And you all would with the EEOC 
data, for example, to do something about the climate in 
particular.
    Ms. Lofgren. All right. Thank you, Mr. Chairman.
    Mr. Johnson of Georgia. Thank you. We will next hear from 
the Ranking Member of the Subcommittee, the gentlelady from 
Alabama, Mrs. Roby. You are recognized for 5 minutes.
    Mrs. Roby. Thank you, Chairman. And again, thank you all 
for being with us today.
    I want to pick up where we left off, Director Lee. We were 
talking about, with my colleague, the patent pro bono program 
which provides the free legal services to eligible inventors, 
the PTO's pro se assistance program which allows inventors to 
file their own application and seek the assistance of the 
patent examiner to identify patentable invention, and the PTO's 
law school clinic program which allows supervised law students 
to help inventors file applications. And I guess what I want to 
hear from you is about, do inventors know that these programs 
even exist? And if more inventors were aware of these programs, 
would it likely result in more women and other underrepresented 
groups filing more patent applications?
    And I would go a little bit further to say, it is buried in 
the website. You have to go through several different clicks 
before you actually find this information. And so if today's 
hearing is about making this information more accessible, to 
me, on the surface, that seems like a really easy fix in terms 
of the USPTO making this information more readily available. So 
if you want to weigh in on that, that would be great.
    Ms. Lee. Right. Well, thank you for raising the point. So I 
do not believe that as many people who should know about the 
programs do know about the programs. So there is a lot more 
work to be done. And one of the reasons why I was so passionate 
about the regional offices of the U.S. Patent and Trademark 
Offices is because we have inventors and potential inventors 
all over this country. And the distribution geographically of 
patent holders is not equal.
    So those offices, the vision is not just to put examiners 
in a room and have them process patent applications. When I 
defined the vision for those regional offices, it was to engage 
with the community. Having been a user of the USPTO services 
for the entirety of my career, they offer all these amazing 
services that, oftentimes, people do not know about.
    So through the regional offices and through a lot of hard 
work at the headquarter office, a core part of the USPTO's work 
is to get the word out there about the many programs that are 
available and to tap communities that are underrepresented. So 
there is more work to be done, but there are great programs, 
more programs to be developed, but you really have to get the 
word out there.
    Mrs. Roby. Well, and just to reiterate the point, I mean, 
if you are--if expense is already an issue and traveling to the 
regional offices is part of the expenses associated with 
pursuing this, it makes sense, when we all do everything on 
this----
    Ms. Lee. Right.
    Mrs. Roby [continuing]. All day long, that it could be as 
easy as visiting the website and having access to that 
information.
    But would it make sense to take the opportunity as well, 
while the PTO is on campus recruiting science and engineering 
students, to promote the benefits of patenting by these 
students and to bring their attention, at the same time, to the 
existence of many of these assistance programs, so that later 
in life, even, the students and their businesses can be PTO 
customers?
    Ms. Lee. Absolutely. Any touch point you can have with the 
local communities, particularly the underrepresented ones, 
including at career recruiting services, or when they are in 
elementary school, giving them an inventor baseball card so 
that one day, they think, huh, there is the Patent and 
Trademark Office and if I have an idea, guess what, I can file 
for a patent through that agency. Any touch point is good.
    Mrs. Roby. That is great. And then just building upon 
that--because you mentioned it, Dr. Howard, --in your 
testimony--can you let us know, when did you become aware of 
the PTO pro bono program, its law school clinic program, and 
its pro se assistance program?
    Dr. Howard. Alas, I can say about a week ago. Actually, 
basically trying to figure out what--reading the report that 
came out in terms of women and underrepresentation, which is--
and I am in this world, and I mentor a lot of young students, 
women entrepreneurs in Georgia and at Georgia Tech, and, 
unfortunately, I didn't hear about a lot of these programs.
    Mrs. Roby. So I think you just put the exclamation point on 
my point, that someone as knowledgeable as you are didn't even 
know the existence of these programs.
    So, Mr. Chairman, I would suggest again that there are some 
pretty easy fixes here in terms of accessibility.
    If anybody else--I have got 10 seconds--wants to weigh in, 
but I think this is a really important point. These programs 
exist and can be expanded, and we ought to be looking at ways 
that we can do that.
    Ms. Cook. I would just add that the SBIR and STTR programs 
are also not very known to inventors and to entrepreneurs, 
especially underrepresented minorities.
    Mrs. Roby. Thank you, Mr. Chairman. I yield back.
    Mr. Johnson of Georgia. Thank you.
    We will next have Representative Stanton from the great 
State of Arizona.
    Mr. Stanton. All right. Thank you very much, Mr. Chairman. 
Thank you for highlighting this incredibly important topic and 
how, if we can help to work on this issue and do better on the 
issue that these outstanding witnesses have discussed, how it 
will benefit the American economy.
    I am lucky enough to represent the district that includes 
Arizona State University, is ranked number 17 of all 
universities worldwide for U.S. patents, so in the top 20. 
Includes MIT, Stanford, Johns Hopkins, and Harvard. So I am 
extremely proud to represent an innovative community that cares 
so deeply about advancing ideas that will undoubted have a 
significant impact not only in Arizona, but across the globe.
    However, we are lucky in Arizona and across the country, we 
are growing in diversity. It is one of our great competitive 
strengths, but if that is not represented in the growing number 
of patents, we are not doing our job. It is simply not 
acceptable that women investors made up only 12 percent of all 
inventors on patents granted in 2016.
    There is no good reason why leaders in our African 
American, Hispanic, and other minority communities, why they 
are so extremely underrepresented in the patent system of our 
country. There is no good reason why we don't do a better job 
of collecting information so we can provide better solutions so 
that the great diversity that we are lucky enough to have in 
our country can be better represented in our patent system.
    So thank you for holding this hearing to talk about these 
important subject matters and what we in Congress and America 
can do to help solve this issue.
    Ms. Cook, Professor Cook, I wanted to ask you a particular 
question. I read your testimony in advance. I hope it wasn't 
covered when I wasn't here, but I was mostly interested in what 
you indicated about the loss to the American economy. If we 
don't have greater diversity in our patent representation, it 
is not just a loss to the individual scientist; it is a loss to 
all of America. And I wanted to give you a chance to maybe 
expound upon that point to better explain to people watching 
here and to Congress how this hurts the American economy.
    Mr. Cook. So it is interesting that you would pick up on 
that. One of the most stark results that I had early on in my 
research was that single-sex teams were less productive than 
co-ed teams, and that is what I was being invited to Silicon 
Valley firms to talk about the most. And I think that makes the 
economic argument on a micro level. We are leaving--and you 
know economists hate to do this--we are leaving $20 bills 
everywhere. I would say they are Benjamins; they are not even 
$20 bills--displaying them everywhere, and we are not picking 
them up.
    This is invention that is going undone. This is higher 
living standards that are going missed by all Americans. So we 
should certainly consider that from a policymaking perspective 
and from the work perspective, the firm's perspective, that it 
is not making use of this human capital and of America's 
inventive capacity.
    Mr. Stanton. I think that is a great point. America is the 
world's leading economy, we want to keep it that way. And 
working with you and others to solve this issue, to make sure 
that the great diversity that we are blessed to have in America 
is better represented in our innovation ecosystem, including in 
patents, that will make the American economy more competitive 
on a global scale. It is really important.
    Thank you for your testimony.
    I yield back.
    Ms. Armstrong. Representative Stanton, could I add 
something to that?
    Mr. Stanton. Please do.
    Ms. Armstrong. I think it is--I love the research data that 
shows the economic benefit, and I also think it is a very--it 
is a global issue. And it is a very strategic issue. If you 
look at the WIPO report, in Korea and China, the numbers for 
women patenters--patent holders are much higher and growing 
significantly. And I think we can't afford, strategically as 
well, to let that trend go unnoticed.
    Mr. Stanton. Thank you very much. I guess I still have a 
minute. So other witnesses, comments on the impact, on the 
America economy that we are not doing a better job of making 
sure that women, people of color, are more represented in the 
innovation ecosystem.
    Ms. Lee. Yeah. Just one final point is, not only is it an 
imperative in an increasingly competitive international 
landscape, but some of our most innovative companies cannot 
hire the technical talent they need, and they are turning 
overseas to fill the gaps. And they are turning to Congress to 
alter immigration laws and so forth. So clearly there is an 
economic imperative as well as a social imperative.
    Mr. Stanton. Thank you. I yield back.
    Mr. Johnson of Georgia. Thank you.
    We will now hear from the great Representative from 
Virginia, Mr. Cline, for 5 minutes.
    Mr. Cline. Thank you, Mr. Chairman.
    And thank the witnesses for being here today. This has been 
very interesting testimony on a very important subject.
    As the father of two 7-year-old daughters, I want them to 
have every opportunity to succeed in whatever field they go 
into, and I very much encourage the foray into sciences. They 
are already taking coding classes in school. I didn't even--I 
couldn't even believe it, in first grade, that they are already 
teaching coding in the schools, and that is fantastic.
    But I am intrigued by the numbers, and I am looking forward 
to the report, because I think it will provide a little bit 
more information about, as you were saying, Professor Cook, 
about the different areas of research. And while women may make 
up an equal number of scientists in biological and life science 
fields but not in other areas of science, like engineering, 
what I am interested in, we have made some progress, and the 
PTO's recent report indicates that the percent of patents with 
at least one woman inventor increased from 7 percent in the 
1980s to 21 percent by 2016. Would you consider that to be a 
positive sign, and why has the growth rate slowed since 1998, 
from 14 percent to 21 percent in 2016, while more and more 
women are entering scientific fields?
    Ms. Cook. So that is a--that is a really good question. 
And, in fact, that was the starting point of my research in 
2010. I saw all of these women going into biological sciences. 
At the time, I was at Stanford, and I just thought, there is so 
many opportunities in biotech, why aren't we seeing women among 
the inventors? So I think that this is definitely a big issue.
    I think making sure that there are interesting things for 
your 7-year-old girls to do, that are just like the things that 
men would like to do, boys would like to do, I think is a big 
deal. If we walk down the aisles of a party goods store and you 
are looking for items for parties, all the pink stuff is 
princess stuff and all the interesting stuff, like Star Wars 
and having to do with innovation, is for boys. So I am--I think 
we really have to start early in terms of the messages we give 
to students.
    And my professors, my colleagues, who talk about having 
hackathons, say that women typically don't come because they 
don't find these interesting problems that they are trying to 
solve. So for all the coding that the women are learning, there 
are no outlets for them that they find interesting. And I am 
not going to say the bar is higher for women in terms of 
interesting projects, but I think at least one can be sensitive 
to that.
    Mr. Cline. And to the numbers in the recent slowing of the 
growth rate since 1998, do you think--I mean, do you have any 
explanation for that? Does it have to do with developments in 
certain segments of the industry? What would you say to that?
    Ms. Cook. I think the patent teams are getting larger, and 
we know that, patent teams are getting larger. And I think that 
is just a feature of patent teams getting larger, that women 
happen to be on them. And I think you just met an equilibrium--
the stagnation equilibrium. But what we know from other STEM 
fields is that there are fewer women going into the fields and 
going into Ph.D. Programs. So that may be a reflection of what 
is happening on the front end too.
    Mr. Cline. Would anyone else like to add to that?
    Ms. Lee. So there was an interesting statistic that in 
computer science in particular, in the 1980s, like in every 
other scientific discipline, the numbers were going up, in some 
areas faster than others, but in computer science, it went 
down, and people are asking why. And if you look back, there 
was an article written that, at the time, the personal computer 
was being introduced, and affluent parents bought their sons 
personal computers and they learned how to program. So when 
these kids then go to college and take computer science 
classes, if you have had experience computer programming, you 
are going to do pretty well in that computer science class, but 
if you have never touched a computer, it is going to be a lot 
harder. So even if you have the intention to enroll in a 
computer science program, when you have that first class, it is 
hard.
    So what we buy our kids, in terms of toys and activities we 
engage them in, matter tremendously. And also, if you think 
about it, the images in the media, about that time, you know, 
Revenge of the Nerds, the images of computer geeks, antisocial, 
if you are a woman or a girl, who wants to be that? So a lot 
has to do with image, but a lot too has to do with the toys, 
the programs, the activities we give to our boys versus girls.
    Mr. Cline. We are buying a lot of Legos in the house right 
now, but I am also glad in culture--and I see Ms. Lofgren has 
stepped away, but talking about the climate, I am glad that 
Captain Marvel is a woman. And that movie is coming out now, so 
I can't wait to take my girls to see that.
    With that, Mr. Chairman, I yield back.
    Mr. Johnson of Georgia. Thank you.
    Next up will be the Chair of the Democratic Caucus, New 
York Representative, Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. I thank the distinguished Chair of the IP 
Subcommittee and all of the witnesses for your presence here 
today.
    It seems when you address this diversity challenge that we 
are confronting in the STEM industry, that there is a 
recruitment issue that is problematic, that many of you have 
spoken to, but there is also a retention issue. And if you 
solve the recruitment issue but don't deal with the retention 
issue, you know, at the end of the day, you haven't really 
meaningfully addressed the problem.
    And, you know, maybe starting with Professor Cook, but I 
would be interested in everyone's perspective, what are some of 
the retention challenges that people of color and women face in 
the innovation economy?
    Ms. Cook. So thank you for your question. I think that one 
of the things that is becoming more and more evident is that 
the climate in many of these patenting firms is not what it 
should be. And because they are demonstrating--because there 
are workers from these companies demonstrating, we should 
listen to them. And if you can do anything, have any sway over, 
say, the EEOC pursuing these claims, I think that would make a 
big difference.
    There has to be some outside force, because they have not 
been able to police themselves in this way. We can make the 
argument--I can go to these firms and talk about the money that 
is being left on the table because patent teams are single sex 
rather than co-ed. I can talk about that. I make the profit 
maximization argument, but I think on the other hand, there has 
to be enforcement, EEOC enforcement. And there seem to be a lot 
of things going on that need a watchful eye.
    Mr. Jeffries. Director Lee, can you comment on sort of the 
culture at these institutions that may be impacting the ability 
to retain talented women and/or people of color?
    Ms. Lee. Yeah. I mean, it is hard when you don't see people 
who look like you, and it is hard when they don't look like you 
in more ways than one. So to the extent--now, that shouldn't 
stop us from, you know, inspiring those underrepresented 
minorities to pursue these fields, but greater networks, 
greater support, greater retention efforts, greater 
consciousness, measuring the data, focusing on areas that need 
improvement, it is--it should be within the priorities of a 
business to want to have these diverse teams. Because as 
Professor Cook says, diverse teams, if you are thinking about 
creating something innovative that has never been done before, 
you get the greatest innovation--and studies have been done on 
this--with people with different perspectives, who don't look 
at the problem the same way.
    Mr. Jeffries. Ms. Armstrong.
    Ms. Armstrong. Being from one of these companies who 
struggles, frankly, to not only recruit, but to maintain a 
diverse workforce, there is a lot of challenges that have been 
talked about here as well. And one of them, frankly, is, how do 
you create this snowball effect. You know, when I was always 
the only woman in the room, especially when you work overseas, 
and how do you create an environment where, especially some of 
the younger people want to work in--people want to work in an 
environment where they see a diverse team or a set of people 
that look like them as well.
    And so, you know, it is very hard to come up with a set of 
magic bullets, but there is a number of things that we are 
working on. Implicit bias does exist. I am sure it exists in 
all of us. So we are trying to engineer that bias out of our 
systems, out of our review systems, and out of our project 
rotation systems, and then certainly recruiting and also trying 
to show that Qualcomm is a--and semiconductor and wireless 
technology is a really wonderful place to have a career. But it 
is a challenge.
    Mr. Jeffries. Thank you.
    And, Professor Howard, if you can just comment briefly in 
connection with your testimony about sort of the high cost of 
obtaining a patent and that as a barrier to entry for greater 
levels of diverse participation. I think you have spoken of 
sort of the patent fees as well as the cost of representation 
as challenges that people face, women or people of color.
    Dr. Howard. Yeah. So the patencies themselves I wouldn't 
claim is as much of a challenge, but it is basically 
prosecuting, i.e., going, doing the dance with the patent 
examiner to finally get the patent issued, that is really the 
problem. That is the majority of the problem. And if you are a 
small business, especially women or underrepresented, every 
single dollar you have is primarily so that you can support the 
business, especially since the angel MVC is not as on par with 
other groups.
    Mr. Jeffries. Thank you.
    And, Mr. Chairman, hopefully that is one of the things that 
we can examine in moving forward, in terms of barriers to 
entry. And I yield back.
    Mr. Johnson of Georgia. Thank you.
    At this time, we will hear now from the Representative from 
the State of California, the great State of California, 
Representative Lou Correa, 5 minutes.
    Mr. Correa. Thank you, Mr. Chairman and Ranking Member.
    And I want to thank you for putting on this most important 
hearing. And I want to thank the members of the panel. I have 
really enjoyed your comments.
    I come from California, central Orange County. I represent 
a district that is essentially very, very blue collar, heavily 
immigrant, folks that are just trying to make it on a day-to-
day basis. That is a doughnut hole. The doughnut, I am 
surrounded by biotech, high tech, and our challenge is to make 
that jump. It is very difficult to make that jump from getting 
our young men and women graduating from high school to work in 
the biotech sector.
    Ms. Lee, I was very pleased to hear that there is all these 
programs out there, that are very well kept secret, and I hope 
the Chairman and Ranking Member, all of us can work to get the 
message out that these programs are there.
    As I thought of your comments, I thought back to my days 
getting my MBA, the concept of actual versus perceived risk. 
Getting an MBA, a lot of my colleagues, top-class engineers, 
scientists, getting their MBAs, top schools, all of us dream of 
hitting it big, the entrepreneurship, you know, the American 
Dream. Yet a couple of years out, after you stumble a couple of 
times, you say, you know what, I am going to go after that 
steady paycheck. I am not going to go and risk my family. I 
want to start a family. Actual versus perceived risk.
    Later on we find out, 15, 20 years later, that you are 
going to get laid off from that big company, so maybe you 
should have gone and become an entrepreneur, started your 
business, so your destiny would have been in your own hands. 
That is what I am saying, actual versus perceived risk.
    And I ask all of you--Ms. Cook, I think you said we got to 
start out early. But I think we have got to change the 
mentality of our young folks that are getting their education, 
which is, we need to develop, not tolerance, but the 
expectation that in your life, you should be able to take these 
kinds of risks, do research and development. And maybe the 
Qualcomms of the world can step up and say, you know what, we 
are going to, not subsidize, but we are going to invest in R&D 
and diversity, not because it is the right thing to do, but 
because it is a smart business thing to do.
    You look at a problem from a different perspective, whether 
it be cultural, societal, language or otherwise, you are going 
to come up with a great idea that is going to sell. Good 
business. The challenge is, how do we get our young people to 
understand that it is safe. It is not really that risky to be 
an inventor, to go off and engage in being an entrepreneur.
    So I am running out of time here, but I would ask all of 
you to think--I would love to talk to you later on offline 
about how we roll out some of these programs. I close my eyes, 
I envision my high schools in my district. I started a program 
called Young Congressional Leaders. I meet with the kids 
Saturday mornings to go show them the biotech, the other career 
opportunities. But we don't talk much about being inventors. 
You know why? Because I have a lot of friends that tried to be 
inventors many decades ago and they fell flat and they ran for 
cover. And we need to teach those young folks, instead of 
running for cover, push harder and become inventors.
    Our country is essentially founded on entrepreneurship. Our 
country is founded on innovation. And we need to push those 
folks in the doughnut holes in our society to move on and take 
command of their lives and our communities.
    So I have 45 seconds left. But, again, love to sit down and 
talk to you. I am going to take names, I am going to take 
numbers. I want to talk to you about how do we roll out--Ms. 
Lee, how we teach our kids about these programs. I want to see 
my schools, my high schools, actually implement some of your 
programs. The pushback I get is, we don't have any money, Lou, 
we can't do this. And you are saying that there is money out 
there. We got a disconnect.
    Mr. Chairman, I yield.
    Mr. Johnson of Georgia. Thank you.
    Next, we will hear from Ranking Member Roby once again.
    Mrs. Roby. Well, I just--thank you, Mr. Chairman.
    I just have one other statement that I want to make. The 
infrastructure for the law school clinic and the pro-se 
assistance programs that we have already discussed, that 
infrastructure, Mr. Chairman, is already in place. So expanding 
these programs to other universities would be of no additional 
expense to either the taxpayer or the patent applicants, and I 
think that is an important point to make as well. So if we are 
really serious about access to this information and to these 
programs, then this can be done already. So that is all I had 
to say.
    Thank you again for being here. Really appreciate your 
participation. Look forward to continuing to work with each of 
you to how we can do this better.
    So thank you, Mr. Chairman. I yield back.
    Mr. Johnson of Georgia. Thank you.
    This has been a very important first hearing for this 
Subcommittee. I would like for us to continue on this topic as 
we proceed through this session of Congress, and on into other 
sessions of Congress to come. I want to thank our witnesses for 
being here today.
    And without objection, all members will have 5 legislative 
days to submit additional written questions for the witnesses, 
or additional materials for the record. And the hearing is now 
adjourned.
    [The information follows:]
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

         MR. COLLINS STATEMENT FOR THE RECORD
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              



                      APPENDIX

         MATERIAL SUBMITTED FOR THE HEARING RECORD
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        



</pre></body></html>
